OFFICE OF INSPECTOR GENERAL

            Audit Report
Evaluation of the Railroad Retirement Board
Medicare Contractor’s Information Security


             Report No. 08-04
            September 26, 2008




 RAILROAD RETIREMENT BOARD
                                    INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) evaluation of
the Railroad Retirement Board (RRB) Medicare contractor’s information security.

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs
provide income protection during old age and in the event of disability, death, temporary
unemployment or sickness. The RRB paid over $9.8 billion in benefits during fiscal year
(FY) 2007. The RRB is headquartered in Chicago, Illinois and has 53 Field Offices
across the nation.

The RRB’s information system environment consists of two general support systems
and six major application systems, one of which is the administration of Medicare
entitlement. Each system has been designated as a moderate impact system in
accordance with standards and guidance promulgated by the National Institute of
Standards and Technology (NIST).

The RRB’s Medicare program provides health insurance to persons ages 65 and older,
as well as certain other persons under age 65 who are entitled to monthly benefits
based on total disability. The RRB enrolls railroad beneficiaries for Medicare coverage,
collects for Part B supplemental medical insurance, and oversees a nationwide contract
for the processing of Part B claims. As of the end of fiscal year 2007, approximately
503,400 persons were enrolled in Medicare Part A, and about 487,400 of them were
also enrolled in Part B. The RRB’s Medicare contractor for Part B claims made
payments totaling $897 million in fiscal year 2007.

This evaluation was conducted pursuant to Title III of the E-Government Act of 2002,
the Federal Information Security Management Act of 2002 (FISMA), which requires
annual agency program reviews, Inspector General security evaluations, an annual
agency report to the Office of Management and Budget (OMB), and an annual OMB
report to Congress. FISMA also establishes minimum requirements for the
management of information security in nine areas.

     ¾   Risk Assessment
     ¾   Policies and Procedures
     ¾   Testing and Evaluation
     ¾   Training
     ¾   Security Plans
     ¾   Remedial Action Process
     ¾   Incident Handling and Reporting
     ¾   Continuity of Operations
     ¾   Inventory of Systems


                                            1
Information security means protecting information and information systems from
unauthorized access, use, disclosure, disruption, modification or destruction in order to
provide confidentiality, integrity, and availability. The agency’s information security
program includes information systems provided by contractors. The RRB’s Medicare
contractor has stated that their entity-wide systems security program has been
implemented, documented, approved and monitored in accordance with methodologies
and requirements established by the Centers for Medicare and Medicaid Services
(CMS), the cognizant Federal agency.

The Bureau of Information Services (BIS), under the direction of the Chief Information
Officer is responsible for the RRB’s information security and privacy programs. The
Office of Programs is responsible for the Medicare major application, including oversight
of its contractor operations.


Objective, Scope and Methodology

This evaluation was performed to meet FISMA requirements for an annual OIG
evaluation of information security for an RRB contractor operation during FY 2008. Our
evaluation consisted of examining documents prepared by the RRB’s Medicare
contractor to support FISMA compliance in accordance with NIST guidance, including
the design of FISMA required controls. These documents are provided to the RRB to
support the RRB’s oversight role for the RRB Medicare program, including FISMA
compliance. Our evaluation did not include an assessment of whether the controls
listed in any of the documents were operating or effective, nor did we evaluate the
documents to determine compliance with CMS methodologies and requirements.

In addition to examining the above-referenced documents, we assessed whether a
web-based component application recently implemented by the RRB in January 2008,
for use by the Medicare contractor, adequately addressed authentication and privacy
risks in accordance with OMB requirements. 1 This component application allows
employees of the Medicare contractor to report specific transactions to the RRB for
updating various RRB information systems.

The primary criteria for this evaluation included:

    •   FISMA requirements;
    •   OMB Circular A-130, “Management of Federal Information Resources”;
    •   OMB memoranda; and
    •   NIST standards and guidance.

Our work was performed in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
1
 Authentication is the process in which the identity of a user is verified, often as a prerequisite to allowing
access to resources in an information system.


                                                      2
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. Fieldwork was conducted at RRB headquarters in Chicago, Illinois from May
through September 2008.




                                         3
                               RESULTS OF EVALUATION

The Office of Programs has received a level of information from their Medicare
contractor that would facilitate their oversight role for the RRB’s Medicare program,
including FISMA compliance. However, some improvement is needed in ensuring
risk-based assessments for the RRB’s information security and privacy program.

The details of our review, including recommendations for corrective action, follow.
Agency management has agreed to take the recommended corrective actions for all
recommendations. The full text of management’s responses is included in this report as
Appendix I.

FISMA Related Documentation

The RRB’s Medicare contractor has provided RRB management with documentation to
support compliance with certain FISMA requirements. RRB management provided us
with copies of the following FISMA related documents:

   •   system security plan,
   •   risk assessment,
   •   self-assessment, and
   •   Plan of Actions and Milestones (POAM).

CMS is the primary recipient of these materials because they are the cognizant Federal
agency for FISMA compliance with respect to Medicare contractors. Our assessment
included a comparison of these documents with applicable NIST guidance for general
form and content.

System Security Plan

Our evaluation of the system security plan using NIST SP 800-18, “Guide for
Developing Security Plans for Federal Information Systems” showed that while the plan
contained extensive control descriptions, it did not list the individual controls specified in
NIST SP 800-53, “Recommended Security Controls for Federal Information Systems.”
We also observed that the plan did not specify which of the individual controls were
“common.” A common control is generally managed by an organizational entity other
than the information system owner and is shared by multiple system owners. The
system security plan presents a background of the program that implies multiple
organizational entities which suggests common controls may be applicable.

Risk Assessment

We evaluated the risk assessment using NIST SP 800-30, “Risk Management Guide for
Information Technology Systems” and observed that the document follows a NIST
compliant methodology. We noted, however, that the control recommendations that are
required by NIST are only referenced in the document and not presented individually.


                                              4
Additionally, the risk assessment document does not reflect whether or not CMS
management or auditors recommended controls that would mitigate the risks to an
acceptable level, and that those recommended controls were implemented by the
Medicare contractor.

Self-Assessment

The Medicare contractor’s self-assessment is well documented and directly references
the individual controls from NIST SP 800-53 and well as other directives such as the
Health Insurance Portability and Accountability Act and the Government Accountability
Office Federal Information System Controls Audit Manual.

Plan of Actions and Milestones

We evaluated the POAM using criteria established by OMB. POAM instructions are
highlighted by OMB each year in their annual FISMA reporting instructions. Detailed
POAM data elements required by OMB are provided in OMB M-04-25, “FY 2004
Reporting Instructions for the Federal Information Security Management Act.” While
POAMs are no longer required to follow the exact format shown in the above referenced
guidance, all of the data elements must still be included. 2 We observed that the POAM
generally complies with OMB guidance. However, we did note that some milestone
completion information was not consistently provided within the POAM. Additionally, we
did not find any overall status information regarding the state of weakness correction
such as “ongoing” or “completed”.


E-Authentication Risk Assessment

An E-Authentication Risk Assessment was not prepared before a newly developed RRB
web-based application was implemented. NIST defines electronic authentication
(e-authentication) as “the process of establishing confidence in user identities
electronically presented to an information system.”

OMB M-04-04, “E-Authentication Guidance for Federal Agencies,” provides agencies
with the guidance for determining the level of e-authentication assurance required for
specific applications and transactions, based on the risks and their likelihood of
occurrence. OMB M-08-21, “FY 2008 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management,” defines an
e-authentication application as an application that:

    •   is web-based;
    •   requires authentication; and
    •   extends beyond the borders of the agency’s enterprise (e.g. multi-agency,
        government-wide, or public facing).
2
  Since this review was for a contractor operation, we did not consider the data element which estimates
the Federal budget funding resources required to address any weaknesses identified in the POAM.


                                                    5
In January 2008, the RRB implemented a web-based component application for use by
the Medicare contractor. This component application allows employees of the Medicare
contractor to report specific transactions to the RRB for updating various RRB
information systems. This application meets the e-authentication criteria established in
OMB M-08-21.

RRB management did not ensure that the E-Authentication Risk Assessment was
prepared in accordance with OMB guidance. As a result, the RRB cannot provide
assurance that the risks associated with improper authentication methods are
addressed in the new application.

Recommendation

    1. We recommend that the Office of Programs prepare an E-Authentication Risk
       Assessment for the newly implemented application.

Management’s Response

The Office of Programs has agreed, and will complete an assessment.

Privacy Impact Assessment

A privacy impact assessment was not prepared before a newly developed RRB web-
based application was implemented. A privacy impact assessment is an analysis of
how information is handled to ensure the handling conforms with legal, regulatory, and
policy requirements regarding privacy. A privacy impact assessment is essentially a
risk assessment of the practices involving privacy-related information.

OMB M-03-22, “OMB Guidance for Implementing the Privacy Provisions of the
E-Government Act of 2002,” requires agencies to prepare privacy impact assessments
when they use information technology to collect new information or when they develop
or buy new systems to handle collections of personally identifiable information. 3

As discussed above, the RRB implemented a web-based component application in
January 2008 for use by their Medicare contractor. This component application allows
employees of the Medicare contractor to report specific transactions to the RRB for
updating various RRB information systems. These transactions include personally
identifiable information and, therefore, meet the criteria established in OMB M-03-22.

RRB management did not ensure that the privacy impact assessment was prepared in
accordance with OMB guidance. As a result, the RRB cannot provide assurance that

3
  Personally identifiable information is any information about an individual maintained by an agency which
can be used to distinguish or trace an individual’s identity, such as their name, social security number,
date and place of birth, mother’s maiden name, biometric records, etc., including any other personal
information which is linked or linkable to an individual.


                                                    6
the risks associated with collecting and handling privacy-related information are
addressed in the new application.

Recommendation

   2. We recommend that the Office of Programs prepare a privacy impact
      assessment for the newly implemented application.

Management’s Response

The Office of Programs concurs with the recommendation and will complete the
assessment.




                                            7
                                                                            Appendix I




                                                                                          FORM G·llSf(l-9Z)
                   UNITED STATES GOVERNMENT
                                                                        RAILROAD RETIREMENT BOARD
                   MEMORANDUM




TO:	          Letty Benjamin Jay
              Assistant Inspector Ge~for A~dit

FROM:	        Catherine A.  Leyse~~ d X~
              Director of Assessment and Training

THROUGH: Dorothy ISherwooffi,_UAf(
         Director of Progr~'-fF:J

SUBJECT:         Draft Report - Evaluation of the Railroad Retirement Board Medicare
                 Contractor Information Security



Recommendation    The Office of Programs should prepare an E-Authentication Risk Assessment
1                 for the newly implemented application.


OP response       We agree. We will complete the assessment by March 31,2009.


Recommendation· The Offie~ofPrograms should prepare a privacy impact assessment for the
1               newly implemented application.


OP response       We concur. We will complete the assessment by March 31, 2009.


cc: Director of Policy and Systems




                                             8

